APPLICATION AND
SOLICITATION DISCLOSURE

VISA CLASSIC/VISA GOLD/VISA PLATINUM/VISA
SECURED/ENGAGE REWARDS VISA SIGNATURE

Visa Classic
Fixed
Annual
Percentage
Rate (APR)
Introductory APR, for qualifying
for
Purchases members, for a period of six
billing cycles, based on your
creditworthiness.

7.24% to 13.99%

After that, or if you do not
qualify for an Introductory APR,
your APR will be

Interest Rates and Interest Charges
Visa Gold
Visa Platinum
Fixed

Fixed

Visa
Secured
Fixed

Engage Rewards Visa Signature
Variable

6.24% to 13.99%

5.49% to 13.74% 11.49% 10.99% to 17.49% ,

Introductory APR, for qualifying
members, for a period of six
billing cycles, based on your
creditworthiness.

Introductory APR, for qualifying
members, for a period of six
billing cycles, based on your
creditworthiness.

when you open your account,
based on your creditworthiness.
This APR will vary with the market
based on the Prime Rate.

After that, or if you do not
After that, or if you do not
qualify for an Introductory APR, qualify for an Introductory APR,
your APR will be
your APR will be

11.24% to 17.99% , 10.24% to 17.99% , 9.49% to 17.74% ,
based on your creditworthiness. based on your creditworthiness. based on your creditworthiness.
Variable

Variable

Variable

9.49% to 17.49% , 9.24% to 17.49% , 8.99% to 15.99% ,
when you open your account,
based on your creditworthiness.
This APR will vary with the
market based on the Prime
Rate.

when you open your account,
based on your creditworthiness.
This APR will vary with the
market based on the Prime
Rate.

when you open your account,
based on your creditworthiness.
This APR will vary with the
market based on the Prime
Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 1 of 4

10428685-MXC10-C-1-042320 (MXC101-E)

Visa Classic
APR for
Balance
Transfers

Interest Rates and Interest Charges
Visa Gold
Visa Platinum

Fixed
7.24% to 13.99%
Introductory APR, for qualifying
members, for a period of 12
billing cycles, based on your
creditworthiness.

Fixed
6.24% to 13.99%
Introductory APR, for qualifying
members, for a period of 12
billing cycles, based on your
creditworthiness.

Fixed
5.49% to 13.74%
Introductory APR, for qualifying
members, for a period of 12
billing cycles, based on your
creditworthiness.

After that, or if you do not
qualify for an Introductory APR,
your APR will be 11.24% to
17.99% , based on your
creditworthiness.

After that, or if you do not
qualify for an Introductory APR,
your APR will be 10.24% to
17.99% , based on your
creditworthiness.

After that, or if you do not
qualify for an Introductory APR,
your APR will be 9.49% to
17.74% , based on your
creditworthiness.

Variable
9.24% to 17.49% , when you
open your account, based on
your creditworthiness. This
APR will vary with the market
based on the Prime Rate.
Fixed
10.24% to 17.99% , based on
your creditworthiness.

Variable
8.99% to 15.99% , when you
open your account, based on
your creditworthiness. This
APR will vary with the market
based on the Prime Rate.
Fixed
9.49% to 17.74% , based on
your creditworthiness.

Variable
9.49% to 17.49% , when you
open your account, based on
your creditworthiness. This
APR will vary with the market
based on the Prime Rate.
Fixed
APR for
11.24% to 17.99% , based on
Cash
Advances your creditworthiness.

Visa
Secured
Fixed
11.49%

Fixed
11.49%

Engage Rewards Visa Signature
Variable
10.99% to 17.49% , when you
open your account, based on your
creditworthiness. This APR will
vary with the market based on the
Prime Rate.

Variable
10.99% to 17.49% , when you
open your account, based on your
creditworthiness. This APR will
vary with the market based on the
Prime Rate.

Variable
Variable
Variable
9.49% to 17.49% , when you
9.24% to 17.49% , when you
8.99% to 15.99% , when you
open your account, based on
open your account, based on
open your account, based on
your creditworthiness. This
your creditworthiness. This
your creditworthiness. This
APR will vary with the market
APR will vary with the market
APR will vary with the market
based on the Prime Rate.
based on the Prime Rate.
based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you any
How to Avoid Paying Interest on Purchases
interest on purchases if you pay your entire balance by the due date each month.
To learn more about factors to consider when applying for or using a credit card, visit the
For Credit Card Tips from the Consumer Financial
website of the Consumer Financial Protection Bureau at
Protection Bureau
http://www.consumerfinance.gov/learnmore.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 2 of 4

10428685-MXC10-C-1-042320 (MXC101-E)

Fees
Set-up and Maintenance Fees
- Account Set-up Fee
- Program Fee
- Participation Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
None
None
None
None
None
None
Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: January 1, 2021
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
Fixed Rate Cards:
For Visa Classic Fixed Rate, Visa Gold Fixed Rate, Visa Platinum Fixed Rate, and Visa Secured Fixed Rate cards, your
rate will not change for 12 months from account opening. You will receive notification of any subsequent change in rate as
required by law.
For California Borrowers, the Visa Secured card is a secured credit card. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are five or more days late in making a
payment.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Returned Convenience Check Fee:
$20.00 or the amount of the returned convenience check, whichever is less.
Card Replacement Fee:
$5.00.
Document Copy Fee:
$1.00 per page.
PIN Replacement Fee:
$5.00.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 3 of 4

10428685-MXC10-C-1-042320 (MXC101-E)

Rush Fee:
$20.00.
Statement Copy Fee:
$1.00 per document.
Courtesy Check Stop Payment:
$15.00 per check.

UNIFY Financial Federal Credit Union doing business as UNIFY Financial Credit Union.

X1153

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 4 of 4

10428685-MXC10-C-1-042320 (MXC101-E)

